APPENDIX

TABLE OF APPENDICES
Appendix A
Judgment of Dec. 22, 2020, United States Court
of Appeals for the Fifth Circuit, Baisley v. IAM,
983 F.3d 809 (5th Cir. 2020). ............... App-1
Appendix B
Opinion, United States Court of Appeals for the
Fifth Circuit, Baisley v. IAM, 983 F.3d 809 (5th
Cir. 2020) .............................................. App-2
Appendix C
Final Judgment, United States District Court
for the Western District of Texas, Baisley v.
IAM, 1:19-CV-531-LY (W.D. Tex. March 19,
2020) ...................................................... App-7
Appendix D
Order, United States District Court for the
Western District of Texas, Baisley v. IAM, 1:19CV-531-LY (W.D. Tex. March 19, 2020)
............................................................... App-9
Appendix E
Relevant
Constitutional
Provision
and
Legislative Material ............................. App-18
Appendix F
Notice to Employees Subject to IAM Security
Clauses .................................................. App-21

App-1

Appendix A
UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT
_______________
No. 20-50319
December 22, 2020
_____________
ARTHUR BAISLEY,

Plaintiff—Appellant,

v.
INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS,

Defendant—Appellee.

___________________________________
Appeal from the United States District Court for the
Western District of Texas
USDC No. 1:19-CV-531
___________________________________
Before CLEMENT, HO, and DUNCAN, Circuit

Judges.

JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.
IT IS ORDERED and ADJUDGED that the
judgment of the District Court is AFFIRMED.
IT IS FURTHER ORDERED that Appellant
pay to Appellee the costs on appeal to be taxed by the
Clerk of this Court.

Certified as a true copy and issued
as the mandate on Jan 13, 2021
Attest:
Clerk, U.S. Court of Appeals, Fifth Circuit

App-2

Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________
No. 20-50319
December 22, 2020
_______________
ARTHUR BAISLEY,

Plaintiff—Appellant,

v.
INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS,

Defendant—Appellee.

_______________________________________
Appeal from the United States District Court for the
Western District of Texas
USDC No. 1:19-CV-531
_______________________________________
Before CLEMENT, HO, and DUNCAN, Circuit
Judges.
EDITH BROWN CLEMENT, Circuit Judge:
The International Association of Machinists
and Aerospace Workers (“IAM”) is the exclusive union
representative for United Airlines employees like
Arthur Baisley. Baisley is not a union member. But,
following longstanding practice and established case
law, the IAM required Baisley— like all other dues
objectors—to opt out of paying full union dues.
Baisley sued to invalidate the opt-out
procedures as violative of his First Amendment rights,
the Railway Labor Act (“RLA”), 45 U.S.C. § 152,

App-3

No. 20-50319

Eleventh, and the IAM’s Duty of Fair Representation.
Finding Baisley’s claims foreclosed by the same
precedents that animated the IAM’s procedures, the
district court dismissed his suit under Federal Rule of
Civil Procedure 12(b)(6). Upon de novo review, see
Lampton v. Diaz, 639 F.3d 223, 225 (5th Cir. 2011), we
reach the same conclusion and affirm.
Baisley’s challenge is far from novel. The
Supreme Court has previously upheld the challenged
statute, Section 2, Eleventh of the RLA, against facial
and as-applied challenges. Ry. Emps.’ Dep’t v. Hanson,
351 U.S. 225 (1956); Int’l Ass’n of Machinists v. Street,
367 U.S. 740 (1961). In Street, the Court said that the
RLA contemplates “forc[ing] employees to share the
costs of negotiating and administering collective
agreements,” but not “forcing employees, over their
objection, to support political causes which they
oppose.” Street, 367 U.S. at 764. Accordingly, the
Court construed the statute “to deny the unions, over
an employee’s objection, the power to use his exacted
funds to support political causes which he opposes.”
Id. at 768–69. Moreover, Street said, “dissent is not to
be presumed—it must affirmatively be made known
to the union by the dissenting employee.” Id. at 774.
Following Street, which we recognized as “the
seminal case on the matter,” this court approved this
very union’s opt-out procedures. Shea v. Int’l Ass’n of
Machinists & Aerospace Workers, 154 F.3d 508, 513
(5th Cir. 1998); id. at 515 (allowing opt-out procedure
under the RLA, while striking union requirement that
nonmembers annually renew objections). Just a few
years ago, we reaffirmed an identical system. See
Serna v. Transp. Workers Union of Am. AFL-CIO, 654

App-4

No. 20-50319

F. App’x 665, 665–66 & n.1 (5th Cir. 2016) (mem.)
(“Shea obliges us to uphold the union’s current opt-out
policy.”).
Against that line of private-sector cases, Baisley
presents the Supreme Court’s recent trio of decisions
in Knox v. SEIU, Local 1000, 567 U.S. 298 (2012),
Harris v. Quinn, 573 U.S. 616 (2014), and Janus v.
AFSCME, Council 31, 138 S. Ct. 2448 (2018). Baisley
especially points to Janus’s declaration that such optout procedures impose an unconstitutional burden on
public employees’ First Amendment rights. Id. at
2486. But Janus and those other cases dealt with
public-sector unions, so it is undisputed that applying
them to this private-sector dispute would require us
to extend into a new realm. The difficulty for Baisley
is that Janus itself cautions against such an
extension. So, indeed, do Knox and Harris.

Knox, which says nothing about private unions,
notes that “[b]ecause a public-sector union takes many
positions during collective bargaining that have
powerful political and civic consequences, the
compulsory fees constitute a form of compelled speech
and association that imposes a ‘significant
impingement on First Amendment rights.’” Knox, 567
U.S. at 310–11 (quoting Ellis v. Ry. Clerks, 466 U.S.
435, 455 (1984)) (citation omitted). And Harris warns
against “fail[ing] to appreciate the difference between
the core union speech involuntarily subsidized by
dissenting public-sector employees and the core union
speech involuntarily funded by their counterparts in
the private sector.” Harris, 573 U.S. at 636. “In the
public sector, core issues such as wages, pensions, and
benefits are important political issues, but that is

App-5

No. 20-50319

generally not so in the private sector.” Id. These
admonitions give us serious pause.

Janus itself says it is unclear whether “the
First Amendment applies at all to private-sector
agency-shop arrangements” like this one. Janus, 138
S. Ct. at 2480 (emphasis added). It is “questionable”
whether “Congress’s enactment of a provision [of the
RLA] allowing, but not requiring, private parties to
enter into union-shop arrangements was sufficient to
establish governmental action.” Id. at 2479 n.24. And
even if the First Amendment does apply here, “the
individual interests at stake still differ,” for the
reasons articulated in Harris. Id. at 2480 (citing
Harris, 573 U.S. at 636). If Knox and Harris have us
pumping the brakes, Janus brings us near a full stop.
Baisley’s response is hardly reassuring. He
urges extension because Knox tells us that Street’s
approval of opt-out procedures was mere “dicta.”
Knox, 567 U.S. at 312–13 (citing Street, 367 U.S. at
774). With that foundation removed, Baisley says,
Shea is ours to reconsider anew. See, e.g., Shea, 154
F.3d at 513. Of course, it is not so simple. We are
bound to follow a prior panel’s opinion “until the
decision is overruled, expressly or implicitly, by either
the United States Supreme Court or by the Fifth
Circuit sitting en banc.” United States v. Kirk, 528
F.2d 1057, 1063 (5th Cir. 1976). Just as important, it
is not clear that we should. Perhaps Street creates an
opening to reconsider Shea’s First Amendment
holding. See Shea, 154 F.3d at 515. If so, that just
brings us right back to Janus’s query whether “the
First Amendment applies at all.” Janus, 138 S. Ct. at
2480. Street’s opt-out language may be dicta, but it

App-6

No. 20-50319

remains to be seen how the Supreme Court will
interpret that distinction in a private-sector dispute.

Cf. Rizzo-Rupon v. Int’l Ass’n of Machinists &
Aerospace Workers, 822 F. App’x 49 (3d Cir. 2020)
(unpublished) (upholding union opt-out procedures
against facial challenge).
Indeed, that is the question for the whole Janus
line. And, amidst all this uncertainty, we are
reminded of the Supreme Court’s caution: “If a
precedent of this Court has direct application in a case,
yet appears to rest on reasons rejected in some other
line of decisions, the Court of Appeals should follow
the case which directly controls, leaving to this Court
the prerogative of overruling its own decisions.”
Rodriguez de Quijas v. Shearson/Am. Express Inc., 490
U.S. 477, 484 (1989). Heeding that advice, we find no
constitutional infirmity in the IAM’s opt-out
procedures under the settled decisions of the Supreme
Court and this Circuit. By extension, Baisley’s
constitutional- avoidance statutory and Duty of Fair
Representation claims also fail.
AFFIRMED.

App-7

Appendix C
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
ARTHUR BAISLEY,
PLAINTIFF,
v.
INTERNATIONAL
ASSOCIATION OF
MACHINISTS AND
AEROSPACE
WORKERS,
DEFENDANT.

§
§
§
§
§
§
§
§
§
§
§
§

CAUSE NO.
1:19-CV-531LY

FINAL JUDGMENT
Before the court is the above entitled cause of
action. On this same date, the court rendered an order
granting Defendant’s motion to dismiss and
dismissing Plaintiffs’ complaint with prejudice.
Accordingly, the court renders the following Final
Judgment pursuant to Federal Rule of Civil Procedure
58.
IT IS HEREBY ORDERED that Defendant is
awarded costs.
IT IS FURTHER ORDERED that the case is
hereby CLOSED.

App-8

SIGNED this

day of March, 2020.

UNITED STATES DISTRICT JUDGE

App-9

Appendix D
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
ARTHUR BAISLEY,
PLAINTIFF,
v.
INTERNATIONAL
ASSOCIATION
OF MACHINISTS
AND AEROSPACE
WORKERS,
DEFENDANT

§
§
§
§
§
§
§
§
§
§

CAUSE NO.
1:19-CV-531LY

ORDER ON MOTION TO DISMISS
Before the court are [International Association
of Machinists and Aerospace Workers]’s Motion to
Dismiss and Supporting Memorandum filed July 2,
2019 (Doc. #16); Plaintiff’s Response to Defendant’s
Motion to Dismiss filed August 1, 2019 (Doc. #23); and
[International Association of Machinists and
Aerospace Workers]’s Reply Memorandum in Support
of Motion to Dismiss filed August 8, 2019 (Doc. #25).
Also before the court is the United States of America’s
Acknowledgment of Plaintiffs Notice of Claim of
Unconstitutionality filed July 12, 2019 (Doc. #22).
The court conducted a hearing on the motion on
September 13, 2019, at which the court entertained
argument from counsel for the parties. Following the
hearing, Defendant’s Notice of Supplemental
Authority was filed on December 16, 2019 (Doc. #30).

App-10

Plaintiff Arthur Baisely’s Response to Defendant
[International Association of Machinists and
Aerospace Workers]’s Notice of Supplemental
Authority was filed January 9, 2020 (Doc. #31).
Having considered the motion, response, reply,
statement, argument, and supplemental authority
and response, along with the applicable law, the court
is of the opinion that the motion to dismiss should be
granted for the reasons to follow.
I. BACKGROUND
Plaintiff Arthur Baisley works as a ramp agent
for United Airlines at Austin-Bergstrom International
Airport and is subject to the exclusive representation
of Defendant International Association of Machinists
and Aerospace Workers (“the Association”), the
certified collective-bargaining representative of
United Airlines’s ramp agents pursuant to a majority
vote of employees in an election conducted by the
National Mediation Board.1 The collective-bargaining
relationship between United Airlines and the
Association is governed by the Railway Labor Act
(“RLA”).2 Pursuant to union security clause contained
in the a [sic] collective-bargaining agreement
governing the terms and conditions of employment at
United Airlines, employees including Baisley are not
required to become members of the union, but they are
required as a condition of employment to pay “service
fees,” also known as agency fees, to the union on a
The Association is one of the largest labor unions in North
America. International Association of Machinists and Aerospace
Workers, http://www.goiam.org/about (last visited Feb. 21,
2020).
2 45 U.S.C. § 152 (2007) (Supp. 2019).
1

App-11

monthly basis. Nonmembers of the union, such as
Baisley, may become “dues objectors” and pay a
reduced fee rate for expenses germane to the
collective-bargaining process only and not for political
activities. The Association administers a system
outlined in its “Notice to Employees Subject to [the
Association] Security Clauses” requiring employees
who seek to become dues objectors to file an objection
notice with the Association. The Association restricts
the times at which an employee may opt-out for a
reduced fee as a dues objector to: (a) November; (b) the
first 30 days in which the employee becomes legally
obligated to pay forced fees; or (c) within 30 days of
resigning membership in the union. Baisley complied
with the Association’s procedures by notifying the
Association of his objection by letter in November
2018, which was accepted by the Association on
November 28, 2018.
Baisley asserts that the Association’s objection
procedures violate Section 2, Eleventh of the RLA by
authorizing the Association and United Airlines to
force employees to pay union fees under threat of
termination. Baisley asserts in the alternative that
the Association’s procedures violate the First
Amendment of the United States Constitution.
II. STANDARD OF REVIEW
Rule 12(b)(6) allows for dismissal of an action
“for failure to state a claim upon which relief can be
granted.” Although a complaint attacked by a Rule
12(b)(6) motion does not need detailed factual
allegations, in order to avoid dismissal, the plaintiffs
factual allegations “must be enough to raise a right to

App-12

relief above the speculative level.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007); see also Cuvillier
v. Taylor, 503 F.3d 397, 401 (5th Cir. 2007). A
plaintiff’s obligation “requires more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Id. The Supreme
Court expounded on the Twombly standard,
explaining that a complaint must contain sufficient
factual matter to state a claim to relief that is
plausible on its face. Ashcroft v. Iqbal, 556 U.S. 662,
677 (2009). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. In evaluating a
motion to dismiss, the court must construe the
complaint liberally and accept all of the plaintiff’s
factual allegations in the complaint as true. See In re
Katrina Canal Breaches Litig., 495 F.3d 191, 205 (5th
Cir. 2009).
III. ANALYSIS
Baisley asserts that the Association’s
procedures violate the RLA because Section 2,
Eleventh of the RLA does not permit the Association
to charge employees for its political activities;
therefore, Baisley argues, the Association “cannot
lawfully require employees to pay for such activities
unless and until they jump through union-created
hoops.” See Communications Workers of America v.
Beck, 487 U.S. 735, 745 (1988) (“Over a quarter
century ago we held that § 2, Eleventh of the RLA does
not permit a union, over the objections of
nonmembers, to expend compelled agency fees on
political causes.”). Baisley further argues that if the

App-13

Association’s procedures are authorized by the RLA,
the RLA violates the First Amendment as the United
States Supreme Court held in Janus v. American

Federation of State, County, and Municipal
Employees, Council 31, ___ U.S.___, 138 S. Ct. 2448
(2018) and Knox v. Service Employees Int’l Union,
Local 1000, 567 U.S. 298, 317 (2012).3 These cases,
Baisley contends, support construing the RLA to
prohibit the procedures required to become a dues
objector. See, e.g., Janus, 138 S. Ct. at 2486 (“Neither
an agency fee nor any other payment to the union may
be deducted from a nonmember’s wages, nor may any
other attempt be made to collect such a payment,
unless the employee affirmatively consents to pay.”).
The Association argues that its procedures are
consistent with binding Supreme Court and Fifth
Circuit precedent and do not violate the RLA or the
First Amendment. See Int’l Ass’n of Machinists v.
Street, 367 U.S. 740 (1961); Shea v. Int’l Ass’n of
Machinists, 154 F.3d 508 (5th Cir. 1998); see also
Serna v. Transp. Workers Union, No. 3:13-cv-2469,
In Janus, the Supreme Court held that public-sector unions
may not deduct agency fees or “any other payment to the union”
from the wages of nonmember employees, unless the employees
waive their First Amendment rights by “clearly and
affirmatively consenting] before any money is taken from them.”
138 S. Ct. at 2486. In Knox, the Court held that “[b]ecause a
public-sector union takes many positions during collective
bargaining that have powerful political
and civic
consequences, . . . the compulsory fees constitute a form of
compelled speech and association that imposes ‘significant
impingement on First Amendment rights’.” 567 U.S. at 310-11
(quoting Ellis v. Brotherhood of Railway, Airline and Steamship
3

Clerks, Freight Handlers, and Express and Station Employees,
466 U.S. 435, 455 (1984)). Unlike Janus and Knox, the
Association in this case is a private-sector union.

App-14

2015 WL 5239668 (N.D. Tex. March 30, 2015), aff’d
mem., 654 Fed. Appx. 665, n.1 (5th Cir. 2016) (“Shea
obliges us to uphold the union’s current opt-out
policy”; Street and Shea foreclose challenge to opt-out
procedures). In response, Baisley asserts that the
cases that the Association cites do not foreclose
Baisley’s claims because they all predate Janus. Thus,
Baisley contends, none of the cases the Association
cites consider whether the RLA can be construed to
avoid the First Amendment problem that Janus now
poses, and this court is free to consider the question of
statutory interpretation as a matter of first
impression.
The Association asserts that Janus and Knox
are inapposite because they involve public-sector
employees through which the state, as the employer,
compelled agency fees to be paid to public-sector
unions, which by their nature are inherently political.
See Knox, 567 U.S. at 310-11; Janus, 138 S. Ct. at
2467, 2473. In this case, the Association argues,
private-sector agency fees agreed to in a private
agreement raise no First Amendment issues, and
Baisley’s ability to dissent ends any potential RLA or
First Amendment claim. See Street, 367 U.S. at 774.
This court agrees.
The collective-bargaining relationship between
United Airlines and the Association is governed by the
RLA. Although Baisley refers to Janus in support of
his claim that federal law makes the union security
provision of the collective-bargaining agreement
unlawful, the important distinction in this case is that
Janus addressed First Amendment issues applicable
only to public-sector employees. 138 S. Ct. at 2478.

App-15

The Janus Court held that arrangements whereby a
governmental entity and a labor organization agree to
require government employees to pay fees that are
used by the union to negotiate how governmental
funds are spent and in what amounts implicate the
First Amendment in ways distinct from agency fees in
the private sector. Public-sector fees involve “the
government . . . compel[ling] a person to pay for
another party’s speech,” on matters involving “the
budget of government” and “the performance of
government services.” Id. at 2467, 2473. Privatesector agency fees raise no such issues.

Janus addressed no issues about a privatesector employee, such as Baisley, who works for a
private company, such as United Airlines. “Congress’
bare authorization of private-sector union shops
under the Railway Labor Act [raises] a very
different . . . question . . . than] when a State requires
its employees to pay agency fees.” Id. at 2479. Based
on the collective-bargaining agreement negotiated
between United Airlines and the Association, Baisley
is required to pay all union fees to the Association
unless he files an objection notice in accordance with
the terms mandated by the Association’s procedures.
Any
remedies,
however,
would
properly be granted only to employees
who have made known to the union
officials that they do not desire their
funds to be used for political causes to
which they object. The safeguards of
[Section] 2, Eleventh were added for
the protection of dissenters’ interest,
but dissent is not to be presumed—it
must affirmatively be made known to
the union by the dissenting employee.

App-16

The union receiving money exacted
from an employee under a union-shop
agreement should not in fairness be
subjected to sanctions in favor of an
employee who makes no complaint of
the use of his money for such activities.

Street, 367 U.S. at 774. Thus, the RLA does permit
the Association to charge employees for its political
activities unless the employee affirmatively dissents.
Further, the Supreme Court in Railway
Employees’ Department v. Hanson upheld the
constitutionality of Section 2 Eleventh of the RLA,
stating explicitly “that the requirement for financial
support of the collective-bargaining agency by all who
receive the benefits of its work is within the power of
Congress under the Commerce Clause and does not
violate either the First of [sic] the Fifth Amendments.”
351 U.S. 225, 238 (1956). Janus did not overrule
Hanson. The Janus Court specifically differentiated
between Hanson, which involved Congress’s
authorization of private-sector unions under the RLA
and Abood v. Detroit Board of Education, 431 U.S. 209
(1977), in which the Court recognized a very different
First Amendment question that arises when a State
requires its employees to pay agency fees. 138 S. Ct.
at 2460. The Janus Court did not overturn Section 2,
Eleventh or the cases cited by the Association, which
control in this case. Because Hanson and the cases
that rely on it are not overruled by Janus, this court
concludes that Baisley’s claim that Section 2 Eleventh
of the RLA is unconstitutional under the Fifth
Amendment must be denied.

App-17

IV. CONCLUSION
IT IS THEREFORE ORDERED that the
International Association of Machinists and
Aerospace Workers’s Motion to Dismiss and
Supporting Memorandum filed July 2, 2019 (Doc. #16)
is GRANTED.
IT IS FURTHER ORDERED that Plaintiff
Arthur Baisley’s complaint is DISMISSED WITH
PREJUDICE.
A Final Judgment shall be filed subsequently.
SIGNED this

day of March, 2020.

UNITED STATES DISTRICT JUDGE

App-18

Appendix E
RELEVANT CONSTITUTIONAL PROVISION
AND LEGISLATIVE MATERIAL
U.S. Const., amend I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
RLA, Section 2, Eleventh, 45 U.S.C. § 152, Eleventh.
Notwithstanding any other provisions of this
chapter, or of any other statute or law of the United
States, or Territory thereof, or of any State, any
carrier or carriers as defined in this chapter and a
labor organization or labor organizations duly
designated and authorized to represent employees in
accordance with the requirements of this chapter
shall be permitted—
(a) to make agreements, requiring, as a
condition of continued employment, that within sixty
days following the beginning of such employment, or
the effective date of such agreements, whichever is the
later, all employees shall become members of the labor
organization representing their craft or class:
Provided, That no such agreement shall require such
condition of employment with respect to employees to
whom membership is not available upon the same
terms and conditions as are generally applicable to

App-19

any other member or with respect to employees to
whom membership was denied or terminated for any
reason other than the failure of the employee to tender
the periodic dues, initiation fees, and assessments
(not including fines and penalties) uniformly required
as a condition of acquiring or retaining membership.
(b) to make agreements providing for the
deduction by such carrier or carriers from the wages
of its or their employees in a craft or class and
payment to the labor organization representing the
craft or class of such employees, of any periodic dues,
initiation fees, and assessments (not including fines
and penalties) uniformly required as a condition of
acquiring or retaining membership: Provided, That no
such agreement shall be effective with respect to any
individual employee until he shall have furnished the
employer with a written assignment to the labor
organization of such membership dues, initiation fees,
and assessments, which shall be revocable in writing
after the expiration of one year or upon the
termination date of the applicable collective
agreement, whichever occurs sooner.
(c) The requirement of membership in a labor
organization in an agreement made pursuant to
subparagraph (a) of this paragraph shall be satisfied,
as to both a present or future employee in engine,
train, yard, or hostling service, that is, an employee
engaged in any of the services or capacities covered in
the First division of paragraph (h) of section 153 of
this title defining the jurisdictional scope of the First
Division of the National Railroad Adjustment Board,
if said employee shall hold or acquire membership in
any one of the labor organizations, national in scope,

App-20

organized in accordance with this chapter and
admitting to membership employees of a craft or class
in any of said services; and no agreement made
pursuant to subparagraph (b) of this paragraph shall
provide for deductions from his wages for periodic
dues, initiation fees, or assessments payable to any
labor organization other than that in which he holds
membership: Provided, however, That as to an
employee in any of said services on a particular carrier
at the effective date of any such agreement on a
carrier, who is not a member of any one of the labor
organizations, national in scope, organized in
accordance with this chapter and admitting to
membership employees of a craft or class in any of said
services, such employee, as a condition of continuing
his employment, may be required to become a member
of the organization representing the craft in which he
is employed on the effective date of the first
agreement applicable to him: Provided, further, That
nothing herein or in any such agreement or
agreements shall prevent an employee from changing
membership from one organization to another
organization admitting to membership employees of a
craft or class in any of said services.
(d) Any provisions in paragraphs Fourth and
Fifth of this section in conflict herewith are to the
extent of such conflict amended.

App-21

Appendix F
NOTICE TO EMPLOYEES SUBJECT TO IAM
SECURITY CLAUSES
Employees working under collective bargaining
agreements containing union security clauses are
required, as a condition of employment, to pay
amounts equal to the union’s monthly dues and
applicable initiation and reinstatement fees and, for
those under the Railway Labor Act assessments. This
is their sole obligation to the union, regardless of the
wording of the clauses. Individuals who join the IAM
as members pay monthly dues and applicable fees. For
individuals who decide not to be members, such
amounts represent “agency fees” for their receipt of
representation services. In the public sector,
nonmembers can elect to pay their fair share of the
costs of collective bargaining by paying the agency
fees, or they have the right to pay no fees. Initiation
refers to the fee that is collected when a member or
nonmember first becomes subject to a security clause
or begins paying dues or fees. Reinstatement refers to
the fee that is collected when a member or nonmember
falls two months behind in satisfying his or her
monthly obligations.
Nonmembers also have a right to file objections to
funding expenditures that are "nongermane to the
collective bargaining process” by following the
procedures set forth below. Individuals should be
aware that the union security clause contained in
their collective bargaining agreement was negotiated
by their fellow employees so that everyone who
benefits from the collective bargaining process shares

App-22

in its cost. The working conditions of all bargaining
unit employees are improved immeasurably when the
union gains higher wages, better health care and
pensions, fairness in the disciplinary system, overtime pay, vacations, and many other improvements in
working conditions at the bargaining table. And while
individuals may choose to meet their financial
obligations as nonmember agency fee payers, before
electing agency fee payer status, individuals should be
aware of the additional benefits of union membership
they will give up. Among the many opportunities
available to IAM members are the right to attend and
participate in union meetings; the right to nominate
and vote for candidates for union office and the right
to run for union office; the right to participate in
contract ratification and strike votes; the right to
participate in the formulation of IAM collective
bargaining demands; the right to run for delegate to
the International Union convention; the right to
participate in the development and formulation of
IAM policies; the right to enjoy the benefits provided
by the Union Plus Program, including low cost phone
service, discounted shopping, low interest credit
cards, life insurance; legal and travel services; the
right to benefit from the IAM’s hardship assistance in
times of natural disasters, scholarship opportunities
for family members, and access to the IAM’s Free
College program.
Individuals who nevertheless elect to be nonmember
agency fee payers may object to funding expenditures
nongermane to the collective bargaining process and
support only chargeable activities. Examples of
expenditures germane to the collective bargaining
process for which objectors may be charged are those

App-23

made for the negotiation, enforcement and
administration of collective bargaining agreements;
meetings with employer and union representatives;
proceedings on behalf of workers under the grievance
procedure, including arbitration; internal union
administration; and litigation related to the above
activities. Expenditures from the union’s strike fund
are chargeable because nonmembers have the same
right to strike benefits as members if they meet the
applicable requirements.
Expenditures nongermane to the collective bargaining
process and, thus, nonchargeable to objectors, are
those which are not directly related to collective
bargaining such as those made for efforts on behalf of
retirees, for general organizing activities; for general
community services; for certain affiliation costs; and
for legislative activities.
IAM objectors must file objections in accordance with
the following procedures:
1. Beginning on November 1, 2018 and ending on
November 30, 2018, or during the first 30 days in
which an objector is required to pay agency fees to the
union, that objector may request that his/her
initiation fee, if applicable, and monthly fee payment
be reduced so that he/she is only bearing the costs of
chargeable activities. Agency fee reductions will be
based on prior audited figures of the IAM Grand
Lodge and on a sample of prior audited figures from
the IAM’s District and Local Lodge levels. For the
calendar year 2019, the percentage reduction in
monthly Grand Lodge per capita payments will be
27.77 percent; plus a 18.44 percent reduction in

App-24

district lodge per capita and a 33.21 percent reduction
in local lodge fees. For objectors represented by
TCU/IAM lodges, there will be a reduction during
calendar year 2019 of 27.77 percent in Grand Lodge
per capita and a reduction of 18.44 percent in the
remainder.
2. A request must be in the form of a letter, signed by
the objector and sent to the General SecretaryTreasurer of the International Association of
Machinists and Aerospace Workers, 9000 Machinists
Place, Upper Marlboro; MD 20772-2687, postmarked
during the period described in paragraph 1 above. The
request shall contain the objector’s home address,
employer, and local lodge number, if known.
3. Upon receiving a proper request from an objector,
the General Secretary-Treasurer shall notify such
objector that the request is perfected and provide a
summary of major categories of expenditures showing
how the reduction is calculated. The Grand Lodge
maintains an escrow account that contains sufficient
monies to cover any challenges to expenditures that
may reasonably be in dispute.
4. Upon receiving the General Secretary-Treasurer’s
notice of the calculation of chargeable expenditures,
an objector shall have 30 days to file a challenge with
the General Secretary-Treasurer if he or she has
reason to believe that the calculation of chargeable
activities is incorrect.
5. If an objector chooses to challenge the calculation of
the advance reduction, there shall be an expeditious
appeal before an impartial arbitrator chosen through

App-25

the American Arbitration Association’s (AAA) Rules
for Impartial Determination of Union Fees.
a. Any and all appeals shall be consolidated and
submitted to the AAA. The presentation to the
arbitrator will be either in writing or at a hearing,
as determined by the arbitrator. If a hearing is
held, any objector who does not wish to attend,
may submit his/her views in writing by the date of
the hearing, or may participate by telephone, if a
hearing is not held, the arbitrator will set the
dates by which all written submissions will be
received and will decide the case based on the
evidence submitted.
b. The IAM shall pay the costs of the arbitration.
Challengers shall bear all other costs in
connection with presenting their appeal (travel,
witness fees, lost time, etc.).Challengers may, at
their expense, be represented by counsel or other
representative of their choice.
c. A court reporter shall make a transcript of all
proceedings before the arbitrator if a hearing is
held. The transcript shall then be the official
record of the proceedings.
d. The union shall bear the burden of justifying
their calculations.
e. The union shall be bound by the decision of the
arbitrator.
6. Objectors may choose to renew their requests for an
advance reduction annually in compliance with the

App-26

above-described procedures, or they may indicate in
their letter to the General Secretary-Treasurer that
they want their objection to be treated as continuing
in nature.
7. A person who was a member of the IAM at the time
set forth in paragraph 1, but who subsequently
resigns from membership, may request objector status
for the remainder of the year. Said former member
may, within the first thirty days after the effective
date of resignation, write to the IAM General
Secretary-Treasurer, as set forth in paragraph 2.

